Exhibit 2
Supreme Court of Connecticut Rescript (Conn. Mar. 19, 2019)

STATE OF CONNECTICUT
SUPREME COURT
Date: Hartford, March 19, 2019
To the Chief Clerk of the Appellate Court.
The Supreme Court has decided the following case:

DONNA L. SOTO, ADMINISTRATRIX (ESTATE OF VICTORIA L. SOTO), ET AL.
v.

Opinion by Palmer, J.

BUSHMASTER FIREARMS INTERNATIONAL, LLC, ET AL.
Docket Nos. SC 19832/SC 19833
Trial Court Docket No. FBTCV156048103S
The judgment is reversed with respect to the trial court's ruling that the plaintiffs
lack standing to bring a CUTPA claim and its conclusion that the plaintiffs' wrongful death
claims predicated on the theory that any sale of military style assault weapons to the civilian
market represents an unfair trade practice were not barred under the applicable statute of
limitations, and the case is remanded for further proceedings according to law; the judgment is
affirmed in all other respects.

Rescript

